         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Allegations of Organizational
Conflicts of Interest at Portsmouth
and Oak Ridge




INS-O-13-01                     November 2012
                                                 2


       Fluor-B&W Portsmouth LLC (Fluor) and its subcontractor, VETCO. We found that
       RSI's objectivity could have been impaired because it held an on-going financial interest
       in VETCO;

     The same financial interest held by RSI in VETCO also existed at Oak Ridge. Both RSI
      and VETCO were subcontractors for UCOR. Also, as indicated with Portsmouth, an RSI
      official was charged with reviewing and approving VETCO's work; and,

     A separate, potential OCI between UCOR and RSI existed at Oak Ridge. Specifically,
      as part of a contractor teaming arrangement with UCOR, a senior RSI official, acting on
      behalf of UCOR, was in a position to review and approve work performed by the senior
      official's employer, RSI.

The issues we identified occurred because Federal officials did not ensure that contractors
completed required mitigation efforts, and fully appreciate the potential impact of assigning
employees across company boundaries during teaming arrangements. While a contracting
officer for the Portsmouth Paducah Project Office (PPPO) identified the OCI between RSI and
VETCO at the time of contract award, officials did not follow-up to ensure that a divestiture
agreed upon as part of a mitigation plan was actually completed.

With regard to the teaming arrangement at Oak Ridge, Federal officials initially told us they did
not believe that the appearance of OCI existed until we specifically pointed out that based on the
team arrangement, the senior RSI official, acting on behalf of UCOR, approved work performed
by the senior official's employer. Responsible Portsmouth and Oak Ridge contracting officers
and Office of the Chief Counsel officials commented that the OCI training they received was a
minor segment of broader training and was not dedicated to handling OCI. As a result, the lack
of familiarity with OCI could have contributed to the issues we identified.

Although we could not establish a direct causal relationship, we also noted a lack of formal
guidance on OCI also may have contributed to the OCI problems at Portsmouth and Oak Ridge.
Notably, on June 21, 1996, Headquarters officials cancelled Department Order 4220.4,
Organizational Conflict of Interest Processing Procedures. Officials from the Office of
Acquisition and Project Management informed us that the Department did not intend to issue a
new directive regarding OCI until a change to the Federal Acquisition Regulation, which is now
under consideration, is finalized.

An effective process to identify, avoid or mitigate potential OCI is essential for agencies like the
Department that rely heavily on contractor support. During the course of our inspection, Federal
officials at both Portsmouth and Oak Ridge took specific corrective actions to mitigate the OCI
issues identified in this report. Specifically, the officials took steps to ensure that the OCI
between RSI and VETCO was mitigated and then prepared written OCI determinations
addressing the mitigation plan from UCOR. While these actions are positive, we believe that
additional action is necessary. As such, we made several recommendations designed to assist
Department management with improving its handling of OCI.
                                                 3


MANAGEMENT REACTION

Management concurred with the recommendations in the report. Specifically, corrective actions
will be taken pending finalization of the Notice of Proposed Rulemaking that will substantially
rewrite the Government-wide regulatory coverage of OCI in the Federal Acquisition Regulation.
The Director, Office of Acquisition and Project Management, anticipates completing the
implementation of these two recommendations within a year of publication of the final
rulemaking. Officials from PPPO and Oak Ridge Office (ORO) indicated that they will follow
the Government-wide guidance and the guidance received from the Office of Acquisition and
Project Management, once finalized.

ORO management, however, did not agree that the OCI issues were substantiated at Oak Ridge.
Specifically, management officials did not agree that the OCI identified in the report was either a
potential or actual OCI. For the reasons outlined in our report, we continue to believe that the
business arrangements we identified constituted a potential and actual OCI. Notably,
management officials from the companies involved acknowledged that there could be
appearance problems. Those officials subsequently prepared OCI mitigation plans to address the
issues identified. ORO management accepted and approved those plans but stated that by
accepting the plans they were not agreeing that either potential or actual OCI existed.

The comments provided by the Office of Acquisition and Project Management, Acquisition and
Project Management, Office of Environmental Management, PPPO and ORO are included in
Appendix 3.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Under Secretary for Nuclear Security
      Acting Under Secretary for Science
      Chief of Staff
      Director, Office of Management
REPORT ON ALLEGATIONS OF ORGANIZATIONAL CONFLICTS OF
INTEREST AT PORTSMOUTH AND OAK RIDGE


TABLE OF
CONTENTS


Organizational Conflicts of Interest

Details of Finding                                     1

Recommendations                                        5

Comments                                               6

Appendices

1. Objective, Scope and Methodology                    7

2. Prior Report                                        8

3. Management Comments                                 9
ALLEGATIONS OF ORGANIZATIONAL CONFLICTS OF INTEREST AT
PORTSMOUTH AND OAK RIDGE
ORGANIZATIONAL   According to Federal Acquisition Regulation (FAR) 2.101
CONFLICTS OF     and Department of Energy Acquisition Regulation (DEAR)
INTEREST         952.209-8(a), organizational conflict of interest (OCI) means "that
                 because of other activities or relationships with other persons, a
                 person is unable or potentially unable to render impartial assistance
                 or advice to the Government, or the person's objectivity in
                 performing the contract work is or might be otherwise impaired, or
                 a person has an unfair competitive advantage." The FAR and
                 DEAR also prohibit business relationships in which a person is
                 either unable to or potentially unable to render impartial assistance
                 or advice to the Government.

                 We substantiated the allegation that OCI existed at the Portsmouth
                 Gaseous Diffusion Plant (Portsmouth) and Oak Ridge Reservation
                 (Oak Ridge). Specifically, we identified OCI between Restoration
                 Services, Inc. (RSI) and VETCO, LLC-Technical Services
                 Company (VETCO) at both Portsmouth and Oak Ridge. We also
                 identified potential OCI between URS | CH2M Hill Oak Ridge,
                 LLC (UCOR) and RSI at Oak Ridge.

                                    OCI at Portsmouth

                 Our inspection substantiated the allegation that OCI existed
                 between RSI and VETCO at Portsmouth. Specifically, we
                 determined that RSI had a financial interest in VETCO that could
                 have impaired RSI's objectivity with regard to reviewing and
                 approving work performed by VETCO on behalf of Fluor-B&W
                 Portsmouth, LLC, (Fluor) at Portsmouth. Fluor is responsible for
                 Portsmouth's Decontamination and Decommissioning (D&D)
                 project, which includes demolition and disposal of all Portsmouth
                 facilities. RSI, the prime environmental technical services
                 contractor, is responsible for performing project management and
                 oversight of Portsmouth's environmental remediation and D&D
                 projects, and as such, must review and approve the work of
                 VETCO through Fluor.




Page 1                                                            Details of Finding
         The following table depicts the contractual relationship among the
         two prime contractors and subcontractor involved in the OCI at
         Portsmouth.

                       Table 1. Portsmouth Contractor Workflow




         In March 2011, Fluor subcontracted with VETCO for technical
         services to develop regulatory documents concerning remediation
         efforts at Portsmouth. As a part of its overall responsibilities at
         Portsmouth, RSI is tasked with reviewing VETCO's work. At the
         time Fluor awarded the contract to VETCO, RSI had a financial
         interest in VETCO. A Portsmouth Paducah Project Office (PPPO)
         Contracting Officer informed us that the Department of Energy
         (Department) identified the OCI between RSI and VETCO prior to
         Fluor awarding the contract and required that the issue be
         addressed. In April 2011, RSI and VETCO took action to mitigate
         the conflict by executing a "Membership Interest Purchase
         Agreement" (MIPA) to divest RSI's financial interest in VETCO.

         Through our review of the MIPA and discussion with a VETCO
         senior official, we determined that despite the passage of 8 months,
         the financial interest between RSI and VETCO had not been fully
         divested. Notably, the agreement appeared to be inadequate to
         fully mitigate the OCI in that it did not call for an immediate
         divestiture and instead permitted RSI's financial interest to
         continue. Specifically, at the time of our inspection there was an
         outstanding balance due to RSI from VETCO, and RSI was
         entitled to a percentage of VETCO's market value. Despite the
         requirement for periodic installments to eliminate the balance due,
         we noted that from April 2011 until November 2011, VETCO had
         not made any payments to RSI.




Page 2                                                   Details of Finding
         The PPPO Contracting Officer discussed the financial relationship
         with RSI officials in January 2011, and was told that RSI would
         fully divest its interest in VETCO. However, until we brought this
         matter to the Contracting Officer's attention, the individual was
         unaware that the OCI had not been fully mitigated. Once informed
         of the issues, the Contracting Officer stated that the Department
         would take immediate corrective action to resolve the OCI. We
         verified that the Department took a number of actions, including
         those required by the DEAR, to mitigate the OCI between RSI and
         VETCO.

                             Potential OCI at Oak Ridge

         We substantiated the allegation that potential OCI existed between
         RSI and UCOR at Oak Ridge. UCOR was responsible for
         completing the cleanup of the East Tennessee Technology Park
         (ETTP) and other Environmental Management (EM) missions at
         Oak Ridge. As the prime environmental subcontractor, RSI
         supports UCOR with D&D of major facilities at ETTP, including
         the K-25 facility, remediates associated media, and performs other
         EM-related activities. Potential OCI existed in this case because a
         senior RSI official also held a senior position in UCOR as part of a
         contractor teaming arrangement. In that position, that individual,
         acting on behalf of UCOR, was in a position to review and approve
         work performed by the senior official's employer, RSI. Further
         complicating the situation, RSI is owned by a relative of the same
         senior official. Both the FAR and DEAR prohibit business
         practices based on impaired objectivity. The following table
         outlines the workflow of the primary contractor and subcontractors
         involved in the potential OCI.

                       Table 2. Oak Ridge Contractor Workflow




Page 3                                                    Details of Finding
               Initially, the Oak Ridge Office (ORO) Contracting Officer
               responsible for the UCOR contract and a senior UCOR official told
               us that they did not believe OCI existed between UCOR and RSI.
               Also, the ORO Contracting Officer relied on reviews by the Oak
               Ridge Office of the Chief Counsel and the Source Evaluation
               Board during a review of the potential OCI. Through subsequent
               discussions with the same Federal officials at Oak Ridge, they
               ultimately agreed that the arrangement concerning the
               responsibility for environmental remediation work assigned and
               prepared by RSI at Oak Ridge represented an appearance of OCI.

               In January 2012, UCOR provided the ORO Contracting Officer a
               proposed mitigation plan to resolve the appearance of OCI. The
               plan included a change in organizational placement of personnel
               who will provide oversight and have approval authority for RSI's
               efforts on designated environmental services and support. After
               reviewing the proposed plan, the ORO Contracting Officer made a
               written determination in January 2012 that the appearance of actual
               or potential OCI no longer existed.

               Additionally, the OCI regarding a continuing financial interest
               between RSI and VETCO identified in Portsmouth also existed in
               Oak Ridge. However, based on the corrective action taken in
               Portsmouth, (that is the divestiture of RSI from VETCO) the OCI
               regarding the continuing financial interest was mitigated. The
               ORO Contracting Officer indicated that the mitigation plan was
               accepted after reviewing the documentation provided by
               Portsmouth that evidenced the full divestiture by RSI of its interest
               in VETCO.

CONTRIBUTING   The actual and potential conflicts outlined in our report either had
FACTORS AND    not been properly mitigated or identified by either the contractors
IMPACT         or the Federal officials involved. The issues we identified
               occurred because Federal officials did not: (1) ensure that
               Department contractors completed required mitigation efforts, and
               (2) fully appreciate the potential impact of assigning employees
               across company boundaries during teaming arrangements. While
               the PPPO Contracting Officer identified the OCI between RSI and
               VETCO at the time of contract award, officials did not follow up
               to ensure that a divestiture agreed upon as part of a mitigation plan
               was actually completed.




Page 4                                                          Details of Finding
                  With regard to the teaming arrangement at Oak Ridge, Federal
                  officials initially did not believe that even the appearance of a
                  conflict existed until we specifically pointed out the potential for
                  the individual in question to approve work performed by the senior
                  official's employer, a teaming partner. Responsible Portsmouth
                  and Oak Ridge contracting officers and Office of the Chief
                  Counsel officials commented that the OCI training they received
                  was a minor segment of broader training and was not dedicated to
                  handling OCI. As a result, the lack of familiarity with OCI could
                  have contributed to the issues we identified.

                  We also noted a lack of formal guidance on the subject also may
                  have contributed the OCI problems at Portsmouth and Oak Ridge.
                  Notably, on June 21, 1996, Headquarters officials cancelled
                  Department Order 4220.4, Organizational Conflict of Interest
                  Processing Procedures, May 19, 1986. Officials from the Office
                  of Acquisition and Project Management informed us that the
                  Department did not intend to issue a new directive regarding OCI
                  until a change to the FAR, now under consideration, is finalized.

RECOMMENDATIONS   Both PPPO and ORO management took specific corrective actions
                  during the inspection to mitigate the OCI issues identified in this
                  report. We believe, however, that additional action is necessary in
                  this area. Based upon the finalization of the new Government-
                  wide regulatory coverage of OCI in the FAR and to ensure future
                  OCI issues are appropriately handled, we recommend that the
                  Director, Office of Acquisition and Project Management:

                      1. Establish an effective process to identify, avoid, or
                         mitigate potential OCI, and;

                      2. Develop and implement a detailed training course for
                         responsible Department officials on the process and
                         procedures for conducting OCI reviews.

                  We also recommend that the Manager, Portsmouth Paducah
                  Project Office and the Manager, Oak Ridge Office:

                      3. Implement the effective process to assist with identifying,
                         avoiding, or mitigating OCI.




Page 5                                                            Details of Finding
MANAGEMENT AND   Management concurred with the recommendations in the report.
INSPECTOR        Regarding recommendations 1 and 2, the Director, Office of
COMMENTS         Acquisition and Project Management intends to update all
                 Department OCI coverage and provide Department personnel
                 Government-wide OCI training, as well as Department-specific
                 OCI training if needed, pending finalization of the Notice of
                 Proposed Rulemaking. This Notice will substantially rewrite the
                 Government-wide regulatory coverage of OCI in the FAR. The
                 Director anticipates completing the implementation of these two
                 recommendations within a year of publication of the final
                 rulemaking. The Director also indicated that he did not believe
                 that the cases described in the report indicate fundamental
                 weaknesses in the current OCI regulations and guidance that would
                 be rectified with the resurrection of Department Order 4220.4. The
                 Director further stated that the contracting officers are required to
                 access and resolve potential OCI issues. For clarity, our report
                 does not indicate that we believe Department Order 4220.4 should
                 be resurrected; however, we are in agreement that even though the
                 Order was cancelled, contracting officers are still required to assess
                 and resolve potential OCI issues.

                 The PPPO Manager concurred with recommendation 3 in the
                 report. However, PPPO thinks this recommendation should be
                 directed to all offices and field sites and not just PPPO and ORO.
                 From our perspective, we only reviewed PPPO and ORO and our
                 recommendations pertain to these sites, but we believe the actions
                 identified for the Director, Office of Acquisition and Project
                 Management should address the concern that the PPPO Manager
                 has regarding this recommendation.

                 The ORO Manager concurred with recommendation 3 and
                 indicated that they will follow the Government-wide guidance and
                 the guidance received from the Office of Acquisition and Project
                 Management, once finalized. Regarding the OCI issues identified
                 at Oak Ridge, ORO does not agree that the OCI issues were
                 substantiated. Specifically, ORO Officials did not agree that the
                 appearance of OCI identified in the report was either potential or
                 actual OCI. For the reasons outlined in our report, we continue to
                 believe that the business arrangements we identified constituted a
                 potential and actual OCI. Notably, management officials from the
                 companies involved acknowledged that there could be appearance
                 problems. Those officials subsequently prepared OCI mitigation
                 plans to address the issues identified. ORO management accepted
                 and approved those plans but stated that by accepting the plans
                 they were not agreeing that either potential or actual OCI existed.


Page 6                                    Management and Inspector Comments
Appendix 1

OBJECTIVE     The objective of this inspection was to examine the facts and
              circumstances surrounding the allegations of organizational
              conflicts of interest (OCI). Specifically, the complaint alleged that
              there were potential OCI involving Restoration Services, Inc.
              (RSI), and VETCO, LLC-Technical Services Company at the
              Portsmouth Gaseous Diffusion Plant. It was further alleged that
              potential OCI existed between URS | CH2M Hill Oak Ridge, LLC
              (UCOR) and RSI at the Oak Ridge Reservation.
SCOPE         This allegation-based inspection was performed between
              October 2011 and October 2012, at the Portsmouth Paducah
              Project Office (PPPO) in Lexington, Kentucky; the Oak Ridge
              Office (ORO) in Oak Ridge, Tennessee; and, Department of
              Energy (Department) Headquarters in Washington, DC.

METHODOLOGY   To accomplish the inspection objective, we:

                    Reviewed and analyzed Federal and Department
                     regulations, contracts and orders, as well as a prior Office
                     of Inspector General report; and,

                    Interviewed officials from the Department's Office of the
                     Chief Counsel and Contracting Officers at both ORO and
                     PPPO, as well as a senior policy official at Department
                     Headquarters.

              We conducted this allegation-based inspection in accordance with
              the Council of the Inspectors General on Integrity and Efficiency's
              Quality Standards for Inspection and Evaluation. Those standards
              require that we plan and perform the inspection to obtain
              sufficient, appropriate evidence to provide a reasonable basis for
              our conclusions and observations based on our inspection
              objective. We believe the evidence obtained provided a reasonable
              basis for our conclusions and observations based on our inspection
              objective. Accordingly, the inspection included tests of controls
              and compliance with laws and regulations to the extent necessary
              to satisfy the inspection objective. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our inspection.
              Finally, we relied on computer-processed data, to some extent, to
              satisfy our objective. We confirmed the validity of such data,
              when appropriate, by reviewing source documents.

              An exit conference was held with ORO and PPPO Officials on
              October 31, 2012. On November 1, 2012, the Office of
              Acquisition and Project Management waived the exit conference.



Page 7                                     Objective, Scope and Methodology
Appendix 2

                                      PRIOR REPORT

     Inspection Report on Organizational Conflicts of Interest Program at Sandia National
      Laboratories (DOE/IG-0853, July 2011). The objective of this inspection was to
      determine whether Sandia National Laboratories' (Sandia) Organizational Conflicts of
      Interest (OCI) Program complied with relevant contractual requirements. Pursuant to
      Federal Acquisition Regulation 35.017, Federally Funded Research and Development
      Centers, and other contractual provisions, Sandia is obligated to protect proprietary data,
      act with independence and objectivity, and perform in a manner free from any OCI. The
      inspection revealed a number of areas where Sandia could improve its OCI process to
      prevent potential or actual OCI. Although specifically required by Federal regulation and
      contractual provisions, Sandia had not completed a number of OCI-related activities. We
      found that Sandia personnel who worked directly with Lockheed Martin Corporation on
      Work for Others projects and Cooperative Research and Development Agreements were
      not aware of the process for releasing information that may have been proprietary to the
      parent corporation.




Page 8                                                                             Prior Report
Appendix 3


             MANAGEMENT COMMENTS




Page 9                             Management Comments
Appendix 3 (continued)




Page 10                  Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
                                                                    IG Report No. INS-O-13-01


                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit or inspection would have been helpful to the reader in
      understanding this report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clearly to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report that would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
